No. 19-1186
IN THE

Supreme Court of the United States
JOSHUA BAKER, in his official capacity as Director, South Carolina
Department of Health and Human Services,
Petitioner,

v.
JULIE EDWARDS, on her behalf and on behalf of
others similarly situated, et al.,
Respondents.

_______________
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Fourth Circuit
_______________
AMICUS BRIEF OF AMERICAN CENTER FOR LAW AND JUSTICE, AND
THE COMMITTEE TO ALLOW STATES TO DEFUND PLANNED
PARENTHOOD, IN SUPPORT OF PETITIONERS
CERTIFICATE OF SERVICE
Jay Alan Sekulow, a member of the Bar of this Court and an attorney for amicus,
pursuant to Rule 29.3, hereby certifies that service to counsel at the addresses below
will be effected electronically, as permitted by the Court’s April 15, 2020 Order.
John D. Bursch
Bursch Law PLLC
9339 Cherry Valley SE, #78
Caledonia, MI 49316
jbursch@burschlaw.com

M. Malissa Burnette
Kathleen M. McDaniel
Burnette Shutt McDaniel
912 Lady Street, 2nd Floor
Columbia, SC 29201
mburnette@burnetteshutt.law
kmcdaniel@burnetteshutt.law
Counsel for Petitioner
Alice Chapman
Jennifer Sandman
Planned Parenthood Federation of America
1100 Vermont Ave, NW, Suite 300
Washington, DC 20005
alice-chapman@ppfa.org
jennifer-sandman@ppfa.org
Counsel for Respondent

/s Jay Alan Sekulow___
Jay Alan Sekulow
April 29, 2020

